                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 112080057                                                                      Page 1 of 1



         This case was opened in response to a hotline complaint that alleged a Principle Investigator1
         from a higher education institutio~ had not performed the work associated with a collaborative
         research proposal. 3 Our review determined that the record retention period for the subject award
         had expired, and the institution no longer had the award records. Therefore, award records
         cannot be obtained or reviewed to assess the allegation.

         This case is closed.




         2




NSF OIG Form 2 (11/02)
